Executive Report



Return to the USDOJ/OIG Home Page



Community Oriented Policing Services (COPS) Funding Acceleratedfor Smaller Towns (FAST), Universal Hiring Program (UHP) andMaking Officer Redeployment More Effective (MORE) grants awardedto the Borough of Dupont, Pennsylvania
GR-70-00-011February 17, 2000Office of the Inspector General

EXECUTIVE SUMMARY
We have audited the Community Oriented Policing Services (COPS) Funding Accelerated for Smaller Towns (FAST), Universal Hiring Program (UHP) and Making Officer Redeployment More Effective (MORE) grants awarded to the Borough of Dupont, Pennsylvania.  The FAST grant and the UHP supplement grant, grant number 95CFWX5686, awarded two 36-hour positions and two part-time positions.  The MORE 95 grant, grant number 96CMWX1019, awarded funding for equipment to redeploy 1.2 full-time equivalents (FTEs).  We performed this limited scope audit in response to a request from COPS expressing concern that Dupont was not conforming to certain grant terms and conditions. 

Audit Results
Dupont did not conform to grant conditions in that the Borough:


supplanted local funds with federal funds,
	did not track redeployment resulting from its MORE grant, 
	did not meet the local matching funds requirement for MORE,
	requested reimbursement for unallowable expenses, and
	did not implement community policing according to the applications submitted.

Consequently, we question $65,892 Dupont has received as reimbursement and recommend that the remaining $76,281 be put to a better use.